Number
In the
SUPREME COURT OF THE UNITED STATES

!
f

Antonia W. Shields, petitioner
v.
United States, respondent

PROOF OF SERVICE
I, Antonia W. Shields, do declare that on August 27, 2021, as required by
Supreme Court Rule 29 and since the United States is a party, I have served the
enclosed MOTION FOR LEAVE TO PROCEED in forma pauperis and PETITION
FOR A WRIT OF CERTIORARI to the United States Solicitor General, by
depositing an envelope containing the above documents through the United States
Postal Service properly addressed per Rule 29, by priority mail with postage
prepaid, and bearing a postmark, other than a commercial postage meter label,
showing that the document was mailed before the last day for filing.
The name and address of representative counsel for United States by Rule 29 is:
The Solicitor General of the United States, representative counsel for defendant
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
I verify under penalty of perjury that the foregoing is true and correct.
Executed on

1G2J

—s,Pro -Se’ PO Box 195, Saratoga Springs, NY 12866 (315)368-4415

AUG 3 1 2021
j

i

wxsasssm

A

